-5443

No.

IN THE
SUPREME COURT OF THE UNITED STATES

RagW4 (Vflok

— PETITIONER

(Your Name)
vs.
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Cn>o\<L
(Your Name)

(Address)

\a L CA
(City, State, Zip Code)

Aks

3ooo

(Phone Number)

Aug

1 ? 2021
£2

114?!

mi:

QUESTION(S) PRESENTED

1. If beneficiaries of the United States Constitution have the right to
prosecute in their own name under Article 3, Section 2 of the Constitution
protected by 42 USC § 1981 and in accordance with the 7th, 9th, and 10th
Amendments and evenly applied through the 14th Amendment, then any
judges/justices who are clearly ignoring or encroaching upon these rights
according to the supreme laws of the land are committing treason for any
blockage, suppression, undo-influence, or coercion not fulfilling their oath
of office?
All judges/justices in petitioner's case have violated 18 USC Ch. 115:
TREASON, SEDITION, AND SUBVERSIVE ACTIVITIES, § 2383.Rebellion or
insurrection - "Whoever incites, sets on foot, assists, or engages in a
rebellion or insurrection against the authority of the United States or the
laws thereof(emphasis added), or gives aid or comfort thereto, shall be
incapable of holding any office under the United States."

2. if Americans have the right! to access their courts to prosecute on their own
behalf under the constitute on and law already established by 42 USC § 1981
for fraud, then would a dis missal without discovery or jury deliberation
violate pro se litigant's c onstitutional guarantees?
3. If petitioner is a benefici ary of the United States Constitution and the
constitution being a bindin g legal contract, then paying $400 to the district
court for a case that is fr ee with no cost, is a contract with considerations
between the court and the p ro se litigant? If the pro se litigant paid for a
venue to conduct a trial by jury and verdict then the court has a duty to
provide a venue as a matter of right and contractual obligation?
4. Are justices violating 18 U SC CH.115 in its entirety when dismissing a case
prior to jury verdict when the laws and rights of the pro se litigant are'
clearly written in plain En glish, unambiguous, or capricious?
5. If the Fourteenth Amendment provides equal protection at law and the right to
sue protected by 42 USC § 1 981, then a dismissal by a district court judge to
be a neutral arbitrator of facts, oversee discovery and testimony, and allow
a jury to render a verdict violates petitioner's rights when her pre-paid
case is dismissed without completion of a jury trial?

ft

LIST OF PARTIES

[V^All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

TABLE OF AUTHORITIES CITED
Statues and Rules:
'■ -r\ Ni’-t. t,-.
United States Constitution - First Amendment grants the People access to the
courts against state and governmental actors. Article 3, Section 2, defines
the courts jurisdiction to all cases within its borders, SEE US Supreme
Court's copy of 13 Cal Jur 3d § 242. Right of access of courts.
California Constitution - Article 1, Section 1, guarantees the right to
ownership and use of the courts for its preservation and protection.
42 USC § 1981 - Equal rights under the law
(a) Statement of equal rights
"All persons within the jurisdiction of the United States shall have
the
same right in every State and Territory to make and enforce
contracts, to sue, be parties, give evidence, and to the full and
equal benefit of all laws and proceedings for the security of
persons and property as is enjoyed by white citizens."
*

FRCP Rule 38. Right to a Jury Trial; Demand
"(a)Right Preserved. The right of trial by jury as declared by the
Seventh Amendment to the Constitution—or as provided by a federal
statute—is preserved to the parties inviolate.
r-

■

i, U >

(b) Demand^ |On -any issue triable of right by a jury, a party may demand
• .. V
a jury trial
by:
(1)Serving the other parties with a written demand—which may be
included in a pleading—no later than 14 days after the last pleading
directed to the issue is served; and
(2)Filing the demand in accordance with Rule 5(d).
(c)Specifying Issues. In its demand, a party may specify the issues
that it wishes to have tried by a jury; otherwise, it is considered
to have demanded a jury trial on all the issues so triable(emphasis
added)."

•

Fourteenth Amendment procedural due process stands for the principle that the
government may not act in a manner that is arbitrary, capricious, or
unreasonable when subjecting an individual to the laws of the state.
Respondent(s) only receive their authority from the state. Robin Shea, a
state actor, and all presiding judges previous to this Supreme Court petition
have violated 18 U.S. Code § 2385. Advocating overthrow of Government.

•

Ninth Amendment guarantees the preservation of the individual's right to
prosecute in their own name.

• ^ Tenth Amendment ensures these rights remain with the People.
Other:
Petitioner paid filing fees for this case which makes this a contract with
the court. Petitioner does recognize her guaranty to free justice and open
courts. Attached to petitioner's declaration, SEE Exhibit 1 - Am Jurs 2d 16A
Constitutional Law, § 613. Guaranty, free justice and open courts.

nA

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

%

STATEMENT OF THE CASE

4
5

REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A

APPENPIX-B
APPENDIX C
APPENDIX D

ABEENDIXT

0

I
IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW
[Vl^For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[\Jr is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
M^or cases from federal courts:

The date on which the United States Court of Appeals decided my case
was_______________________
[ ] No petition for rehearing was timely filed in my case.
M A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: "1
'lO'ZA__ ._______ , and a copy of the
order denying rehearing appears at Appendix f\
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
_______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

Is.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

•

Petitioner's guaranty of free justice and open courts. SEE Exhibit 1 - Am
Jurs 2d 16A Constitutional Law, § 613. Guaranty, free justice and open
courts, attached to petitioner's declaration.

•

Petitioner contracted with the court for a venue and trial by jury and paid
$400 for the court to'conduct a jury trial as a matter of right and justice.

STATEMENT OF THE CASE

Petitioner, Rachel Crook, filed a civil suit against Respondents, Shea
Fiduciary Services and Robin Shea, court appointed fiduciary/state actor.
Robin Shea, a state actor, fraudulently accessed and re-routed petitioner's
private property/home mortgage information to respondent's business, Shea
Fiduciary Services, which has no affiliation to Petitioner. Robin Shea, state
actor, attempted to extort petitioner by attempting to include petitioner's
private property, primary residence of herself and her 7 minor children, to
extract a signature for a settlement agreement from petitioner's spouse in an
unrelated case.

Article 1, Section 1 of the California Constitution mandates privacy as a
fundamental constitutional guarantee. Also reiterated in Article 1, Section
3.(3), "Nothing in this subdivision supersedes or modifies the right of
privacy guaranteed by Section 1 or affects the construction of any statute,
court rule, or other authority to the extent that it protects that right to
privacy."

REASONS FOR GRANTING THE PETITION

To protect the constitutional guarantees and the integrity of the
jurisprudence and equality among citizens to ensure their grievances, rights,
and property are protected within their own control.

To provide clarity for district court judges and justices to follow the rule
of law. Pro se litigant has the right to sue under the following
constitutional laws, statues, and jurisprudence:

•

US Constitution - Article 3, Section 2,

•

7th, 9th, 10th and 14th Amendments
42 USC § 1981, and
FRCP Rule 38,

The Constitution and rule of law are in exact alignment with the petitioner's
request.

6

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Ucci'-gogwrlft
Date:

3

/Uu^x-b il 1 nJMA

